W                                                                    September 22, 1999


TO:              M/Associate Administrator for Space Flight
                 AA/Director, John F. Kennedy Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Review of Costs Incurred for a Barbecue
                 Sponsored by The Boeing Company
                 Assignment No. A9902700
                 Report Number IG-99-046


The subject final report is provided for your information and use. Please refer to the finding
paragraph for the overall audit results. Our evaluation of your response is incorporated into
the body of the report. The corrective actions planned or completed for recommendations 1
and 2 were responsive. Management's actions are sufficient to close recommendation 1 for
reporting purposes. However, recommendation 2 will remain open for reporting purposes.
Please notify us when action has been completed on the recommendation, including the extent
of testing performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Director,
Procurement Audits, at (818) 354-3360; Ms. Nora Thompson, Audit Program Manager, at
(757) 864-3268; or Ms. Bonnie Armstrong, Auditor-in-Charge, at (407) 867-4073. We
appreciate the courtesies extended to the staff. The final report distribution is in Appendix C.


[original signed by]

Russell A. Rau

Enclosure
                                              2
cc:
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
KSC/OP/Director, Procurement Office
bcc:
JPL/W/Mr. L.Dear
KSC/Audit Liaison Representative
KSC/W/Ms. B. Armstrong
LaRC/W/Ms. N. Thompson
                                                          IG-99-046




REVIEW
                             COSTS INCURRED FOR A BARBECUE
REPORT                      SPONSORED BY THE BOEING COMPANY

                                     September 22, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html .

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E Street, SW
               Washington, DC 20546 - 0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form ;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential, upon
request, to the extent permitted by law.


Acronyms

CAS            Cost Accounting Standards
DCAA           Defense Contract Audit Agency
FAR            Federal Acquisition Regulation
                               NASA Office of Inspector General

IG-99-046                                                                         September 22, 1999
 A9902700

                                Costs Incurred for a Barbecue
                              Sponsored by The Boeing Company

Introduction
In December 1998, The Boeing Company (Boeing) sponsored a barbecue near Kennedy Space
Center for NASA and contractor personnel who worked on the Mars Climate Orbiter launch.1
Boeing held the barbecue to celebrate the successful launch of the spacecraft. NASA and
contractor personnel attended the barbecue. From January 1998 through June 1999, NASA
personnel were given permission to attend 16 events near the Center that were sponsored by
contractors and organizations. Boeing participated in sponsoring 4 of those 16 events.2

In February 1999, we requested that the Defense Contract Audit Agency (DCAA) review the
costs incurred for the December 1998 barbecue and Boeing’s charges for the event. In April
1999, DCAA provided us a letter reporting the results of its review. Subsequently, we
conducted additional review work of the December 1998 Boeing barbecue. The overall
objective of our review was to evaluate the effect of the barbecue charges to NASA. During
our review, we identified three other contractor-sponsored events in 1998 near the Kennedy
Space Center. We did not evaluate incurred costs or charging practices for the three events
because such an evaluation was outside the scope of our review. Appendix A contains details
on our scope and methodology.


Background

The NASA Associate Administrator for Human Resources and Education gave approval in a
letter, dated December 10, 1998, for Agency personnel to attend the December 1998 barbecue.
The letter concluded that it would “be in the best interests of the Government and for those
NASA employees attending the launch to do so in their official capacity and as representatives
of NASA.” The approval letter stated the reception would be a widely attended gathering of

1
 The Mars Climate Orbiter was launched December 11, 1998, to embark on a study of the planet’s climate and
current water resources.
2
 In addition to the barbecue, Boeing participated in sponsoring (1) a reception recognizing the first United States
element of the International Space Station on December 2, 1998; (2) a reception and screening of a documentary
on John Glenn on October 27, 1998; and (3) tours, a recognition dinner, and a reception commemorating the
Spacelab program on April 15 and 16, 1998.
NASA and military personnel, academia, and members of the aerospace industry, most of
whom are involved in the Mars Orbiter project and with whom NASA personnel will be
involved in additional space-related projects. Accordingly, the Associate Administrator
approved Agency employee participation without charge.


Segregation of Unallowable Costs

Finding. In April 1999, DCAA reported that Boeing spent a total of $10,183 for the
barbecue. Boeing charged all costs of the barbecue directly to the NASA firm-fixed-price
contract NAS5-32933.3 Of the $10,183 Boeing charged to the contract, the contractor
incurred $675 for alcohol and entertainment costs. We informed the contracting officer of the
unallowable costs, and Boeing adjusted its accounting records to correctly reflect the costs.
The charges occurred because (1) a Boeing program manager inappropriately advised that all
costs of the barbecue be charged directly to the contract and (2) the NASA contracting officer
had limited visibility over costs charged to the fixed-price contract. During our review, we
notified the NASA contracting officer, who asked Boeing officials to remove the unallowable
costs from the estimating base on contract NAS5-32933. Boeing officials moved the $10,183
cost for the barbecue from the NASA contract to a commercial overhead pool. Additionally,
Boeing Rate Management Department officials strengthened internal controls to ensure the
detection of unallowable costs. Employees from the Rate Management Department will
review and approve all indirect expenditures and will verify the accuracy of cost charge
numbers.

Cost Requirements and Allowability

Federal Acquisition Regulation (FAR), Part 31, classifies alcohol and entertainment costs as
unallowable.4 Federally mandated Cost Accounting Standards (CAS) require that
unallowable costs be segregated from other contract costs.5 Further, under the contract,
Boeing must




3
 The contract provides medium- and light-weight expendable launch vehicle services for several NASA
spacecraft, one of which is the Mars Climate Orbiter. The current contract value is $481 million. NASA
awarded the firm-fixed-price contract to McDonnell Douglas Aerospace at Huntington Beach, California, in
February 1996. Boeing subsequently purchased McDonnell Douglas Aerospace and assumed the contract. The
contract also provided launch services for the Deep Space I, Mars Polar Lander, and Stardust spacecraft.
4
  FAR, Part 31.205-51 states that costs of alcoholic beverages are unallowable, and FAR, Part 31.205-14 states
that costs of social activities and amusement are unallowable. FAR 31.001 defines unallowable cost as any cost
which cannot be included in prices, cost-reimbursements, or settlements under a Government contract.
5
 CAS 405 requires contractors to identify unallowable costs and to segregate those costs from allowable contract
costs.



                                                       2
comply with CAS in the recording, billing, and reporting of contract costs.6 Finally, Boeing
accounting policy defines unallowable cost as any cost, which by regulation or Government
audit, cannot be included in prices, invoices, or proposals to the Government.7

Effect of Charges on NASA

Since Boeing has removed the $10,183 from the estimating base on contract NAS5-32933,
unallowable costs will not affect NASA contract costs or future Boeing proposals to NASA.
However, NASA officials gave NASA personnel permission to attend three other contractor-
sponsored events, but did not notify the NASA contracting officers. To ensure unallowable
costs were not charged to the three other Boeing contracts, the NASA contracting officers
should determine whether Boeing billed unallowable costs to the contracts. Additionally,
NASA management may want to consider the appearance of such events to the public.
Although only $675 of the incurred costs was unallowable, expending more than $10,000 for
a barbecue may subject NASA to criticism in times of fiscal constraint.


Recommendations, Management's Response, and Evaluation of Response

The Director, Kennedy Space Center, should:

1. Require that the Director of the NASA/Kennedy Space Center Procurement Office
   notify the appropriate NASA/Kennedy Space Center contracting officer(s) of
   contractor-sponsored events that may result in a cost impact to a locally
   administered contract, whether approval to attend the events was issued from NASA
   Headquarters or from NASA/Kennedy Space Center.

Management's Response. Concur. The Office of the Chief Counsel will continue to ensure
that the Procurement Office is informed of approved, widely attended, contractor-sponsored
events so that the appropriate contracting officer will receive notification of such events. The
complete text of the comments is in Appendix B.

Evaluation of Management's Response. The action taken by management is responsive to
the recommendation. The recommendation is resolved, dispositioned, and closed for
reporting purposes.



6
 Contract clause 52.230-2, “Cost Accounting Standards,” requires compliance with CAS, including CAS 405.
See footnote 5 for that requirement.
7
 Boeing accounting procedure RMDP-98-23, “Allowability of Indirect Costs,” defines unallowable costs. The
procedure tasks the Boeing Rate Management Department with determining the allowability of an indirect
expenditure and approving a cost charge number.



                                                     3
2. Direct the Kennedy Space Center Procurement Office Director to request that NASA
   contracting officers check the billings on the three Boeing-sponsored social events to
   ensure that additional unallowable costs were not billed to NASA.

Management's Response. Concur. The Procurement Officer has directed Boeing to review
the costs associated with all similar events that have been charged to NASA contracts and to
confirm that the costs have been appropriately accounted for as indirect costs and that no
unallowable expenses have been included (see Appendix B).

Evaluation of Management's Response. The action taken by management is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and
open until Boeing has reviewed the costs associated with similar events and has confirmed
that the costs are appropriately charged.




                                              4
                        Appendix A. Scope and Methodology


To evaluate whether Boeing charged NASA any unallowable costs related to the barbecue, we
requested that the DCAA review costs billed to NASA for the barbecue. We reviewed
contract documents, contract cost charging requirements, and CAS included in the FAR. We
also reviewed Boeing accounting policy; interviewed the NASA contracting officer, the
Boeing manager, and audit staff from DCAA; and compared cost charging practices on NASA
contract NAS5-32933 with Boeing accounting policy. In April 1999, DCAA informed us that
expressly unallowable costs were charged to the NASA contract. DCAA based its conclusion
on inquiries made of Boeing personnel.

After DCAA identified the unallowable costs, we reviewed approvals granted for NASA
employees to attend similar events near Kennedy Space Center. The Chief Counsel at the
Center retained the approvals. Although we identified three other events since January 1998,
sponsored completely or in part by Boeing, we did not evaluate any costs incurred for those
events or assess the allowability of those costs. An evaluation of incurred costs for the three
Boeing-sponsored events exceeded the scope of our review.

We performed our field work from February through July 1999.




                                               5
Appendix B. Management's Response




                6
    Appendix B




7
Appendix B




             8
    Appendix B




9
Appendix B




             10
     Appendix B




11
                  Appendix C. Report Distribution
________________________________________________________________
_

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
  Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space


Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations




                                             12
                                                                      Appendix C


Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

House Committee on Science
House Subcommittee on Space and Aeronautics


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                            13
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Nora E. Thompson, Audit Program Manager, Procurement

Bonnie Armstrong, Auditor-in-Charge

Christina Head, Program Assistant

Nancy C. Cipolla, Report Process Manager
